SEMIANNUAL REPORT




  U.S. ELECTION ASSISTANCE
         COMMISSION,
     OFFICE OF INSPECTOR
            GENERAL




For the Period:
October 1, 2006, Through
March 31, 2007
                         U.S. ELECTION ASSISTANCE COMMISSION
                              OFFICE OF INSPECTOR GENERAL
                         1225 New York Ave. NW - Suite 1100
                                Washington, DC 20005


                                                               April 30, 2007


The Honorable Donetta Davidson
Chairwoman
U.S. Election Assistance Commission
1225 New York Avenue NW- Suite 1100
Washington, D.C. 20005


Dear Madam Chairwoman:


        The Inspector General Act of 1978 (Public Law 95-452), as amended,
calls for the preparation of semiannual reports to the Congress
summarizing the activities of the Office of Inspector General (OIG) for the
six-month periods ending each March 31 and September 30. I am pleased
to enclose the report for the period from October 1, 2006 to March 31,
2007.


        The Inspector General’s report covers audits, investigations and
other reviews conducted by the OIG as well as audits conducted by
independent auditors. The report also indicates the status of management
decisions whether to implement or not to implement recommendations
made by the OIG.


        The Act requires that you transmit the report to the appropriate
committees of the Congress within 30 days of receipt, together with any
comments you may wish to make. Comments that you might offer should
be included in your "Report on Final Action," a management report that is
required to be submitted along with the Inspector General’s report. We will
work closely with your staff to assist in the preparation of the management
report. The due date for submission of both reports is May 31, 2007.
      I appreciate the continuing support we have received from the
Chair’s Office and your managers throughout the Commission. Working
together, I believe we have taken positive steps to improve Commission
programs and operations. We look forward to continuing these efforts.


                                          Sincerely,




                                          Curtis Crider
                                          Inspector General
Table of Contents

                                                   Page


Election Assistance Commission Profile              1


Office of Inspector General Operations              3


    State Audits                                    3

    Other Activities                                7


Appendices:


   A. Office of Inspector General Reports Issued    8
   B. Monetary Impact of Audit Activities           9
   C. Reports with Questioned Costs                10
   D. Reports with Potential Additional Program    11
      Funds
   E. Reports with Funds Be Put to Better Use      12
   F. Reporting Requirements of the Inspector      13
      General Act
EAC PROFILE

                        Congress established the Election Assistance
                        Commission (EAC) with the passage of the Help
                        America Vote Act (HAVA) in October 2002. EAC
                        became operational in fiscal year 2004.

Among EAC’s Key
Duties Are:             HAVA requires EAC’s to:

Instituting a program   Generate technical guidance on the
to test and certify
voting systems to       administration of federal elections.
standards developed
by EAC
                        Produce voluntary voting systems guidelines.
Administering the use
of $3 billion in
Federal payments and    Research and report on matters that affect the
grants                  administration of federal elections.
Researching various
Federal election
administration topics   Otherwise provide information and guidance
                        with respect to laws, procedures, and
                        technologies affecting the administration of
                        Federal elections.


                        Administer payments to States to meet HAVA
                        requirements.


                        Manage funds targeted to certain programs
                        designed to encourage youth participation in
                        elections.


                        Develop a national program for the testing,
                        certification, and decertification of voting
                        systems.




                                        1
Maintain the national mail voter registration form
that was developed in accordance with the
National Voter Registration Act of 1993 (NVRA),
report to Congress every two years on the impact
of the NVRA on the administration of federal
elections, and provide information to States on
their responsibilities under that law.


Audit organizations which received federal funds
authorized by HAVA from the General Services
Administration or the Election Assistance
Commission.


Submit an annual report to Congress describing
EAC activities for the previous fiscal year.




              2
OIG OPERATIONS

                        HAVA added the EAC to the list of designated
                        Federal entities covered by the Inspector General
The EAC OIG has one     Act (IG) of 1978 (Public Law 95-452, as amended).
permanent full-time     According to the IG Act, inspectors general:
position (the
Inspector General),
two contract auditors   Conduct and supervise internal reviews, audits and
from the U.S.
Department of the       evaluations of agency programs and operations;
Interior, and a
contract with an
independent public      Provide leadership and coordination, and
accounting firm for     recommend actions to management, which: (1)
additional audit
support. The EAC OIG    promote economy, efficiency, and effectiveness in
obtains investigative   agency programs and operations; and (2) prevent
assistance under
reimbursable            and detect fraud, waste, abuse, and
agreements from
                        mismanagement of government resources; and
other Inspectors
General.
                        Keep the agency head, management, and the
                        Congress fully informed regarding problems and
                        deficiencies, and the progress of corrective action.


                        State Audits


                        We finished four audits of State use of HAVA funds.
                        The objective of the audits was to determine
We completed audits     whether the States:
of Texas, Illinois,
Pennsylvania, and
South Carolina.         (1) managed HAVA funds in accordance with the
                        Uniform Administrative Requirements for Grants
                        and Cooperative Agreements with State and Local
                        Governments (the Common Rule) and the Cost
                        Principles for State, Local, and Indian Tribal
                        Governments (Office of Management and Budget
                        Circular A-87) and



                                       3
(2) complied with HAVA requirements for
maintaining the election fund and sustaining the
State’s level of expenditures for elections.


We found that:


TEXAS generally administered HAVA funds in
accordance with requirements, properly
established the State election fund, appropriated
and deposited into the election fund its matching
monies, and sustained the appropriate level of
state expenditures for elections. The audit also
found that Texas incorrectly financed indirect costs
with HAVA funds before EAC had approved the
State’s indirect cost rate. As a result, we
questioned indirect costs of $180,609. In addition,
we determined that Texas needs to take additional
steps to ensure that income from county leasing of
HAVA-financed voting equipment is accurately
computed, reported and properly used.


EAC responded that Texas had made the
appropriate adjustments for the $180,609 in
unapproved indirect costs and had filed the
appropriate amended reports. In addition, Texas
was advised that it must ensure that counties
retroactively calculate net program income for
HAVA funds. Texas must also demonstrate that it
has provided appropriate guidance to counties
regarding the computation, use, and reporting of
program income.


ILLINOIS generally accounted for and expended
HAVA funds in accordance with requirements but
needed to improve its cash and property



              4
management procedures and/or processes. These
improvements are needed to ensure that
subrecipients (counties) expend HAVA funds in a
timely manner and account for property in
accordance with Federal requirements. Disbursing
funds from its interest-bearing Help Illinois Vote
Fund to counties sooner than needed resulted in
lost interest of about $36,000. We also identified
a questionable state expenditure of $3,889 for an
unauthorized activity. Finally, we discovered that
Illinois miscalculated its matching fund
requirement for Section 251 payments, and did not
deposit into the Vote Fund interest earned on the
matching funds which it had appropriated.
Consequently, Illinois owes the Vote Fund
additional matching funds $189,223 and interest
of $227,996.


In its response to the final report, the EAC said that
Illinois must repay at least $453,290 to the state
election fund and $3,889 to the U.S. Treasury. In
addition, Illinois was instructed to analyze all HAVA
funds it advanced to its counties and repay any
other lost interest to the state election fund. Also,
the state must provide EAC copies of revised
equipment inventories submitted by the counties
to document the changes in recordkeeping
procedures for equipment procured with HAVA
funds.


PENNSYLVANIA generally accounted for and
expended HAVA funds in accordance with
requirements. However, we identified a need for
administrative improvements to ensure that
expenditures for payroll are adequately supported



               5
and equipment is properly managed and
safeguarded. Because of insufficient supporting
documentation, we questioned payroll of
$562,513. In addition, we were not able to
determine whether Pennsylvania satisfied the
requirement for maintaining state expenditures for
activities funded by Section 251 payments at a
level not less than expended in the state fiscal year
ending June 30, 2000. This occurred because the
state did not identify fiscal year 1999 operations
and expenditures for activities currently funded by
Section 251 requirements payments and did not
monitor State spending for such activities in
subsequent years. The EAC is in the process of
resolving the issues identified in the report.


SOUTH CAROLINA generally administered funds in
accordance with financial management
requirements. However, we questioned costs of
$92,506 associated with a vehicle purchase
because South Carolina did not obtain required
prior approval from EAC. We also noted that South
Carolina did make sure that counties kept required
property records of equipment purchased with
HAVA funds. Furthermore, we found that South
Carolina miscalculated the matching fund
requirement and did not deposit into the State
election fund interest earned on the matching
funds which it had appropriated. Consequently,
South Carolina understated its matching fund
requirement by $85,319 and owes the election
fund interest estimated at $29,475. Finally, we
were not able to determine whether South Carolina
satisfied the maintenance of effort requirement
because it did not identify its base-year level of



              6
effort or subsequent years spending of state funds
pertaining to Section 251-type activities. The EAC
is in the process of resolving the issues identified
in the report.


Other Activities


The IG Act requires reporting on other categories.
We are reporting no actions in the following
categories:


   •   Reviews of Legislation, Rules, Regulations
       and Other Issuances


   •   Investigations


   •   Recommendations in Previous Reports on
       which Corrective Action has not been
       Implemented


   •   Matters Referred to Prosecuting Authorities


   •   Denial of Access to Records


   •   Significant Revised Management Decisions
       Made During the Period


   •   Significant Management Decisions with
       Which the Inspector General Disagrees




                 7
                                                        APPENDIX A
Reports Issued


Internal         None

Reports



Evaluations      Non Compliance with the Federal Information
                 Security Management Act by the U.S. Election
                 Assistance Commission (Assignment No. I-EV-
                 EAC-02-06), October 2006


External         1. Administration of Payments Received Under the

Reports          Help America Vote Act by the Texas Secretary of
                 State (Assignment No. E-HP-TX-06-06), October
                 2006


                 2. Administration of Payments Received Under the
                 Help America Vote Act by the Illinois State Board of
                 Elections (Assignment No. E-HP-IL-07-06),
                 October 2006


                 3. Administration of Payments Received Under the
                 Help America Vote Act by the Secretary of the
                 Commonwealth of Pennsylvania (Assignment
                 Number E-HP-PA-10-06), January 2007


                 4. Administration of Payments Received Under the
                 Help America Vote Act by the South Carolina
                 Election Commission (Assignment Number E-HP-
                 SC-11-06), January 2007




                                8
                                                                  APPENDIX B
Monetary Impact Of Audit Activities*


      Questioned Costs                            $    839,517


      Potential Additional Program
      Funds                                            532,013


      Funds be Put to Better Use                         36,071


      Total                                        $1,407,601

      * Unsupported costs are included in questioned costs.




                                       9
                                                                   APPENDIX C
Reports With Questioned Costs*
                                                   Questioned     Unsupported
            Category                 Number          Costs           Costs

A. For which no
management decision had
been made by the
beginning of the reporting
period.                                  2                0            0

B. Which were issued during
the reporting period.                    4             $839,517     $562,513

Subtotals (A+B)                          6             $839,517     $562,513

C. For which a management
decision was made during the
reporting period.                        4             $184,498        0

  (i) Dollar value of
recommendations that were
agreed to by management.                               $122,275        0

  (ii) Dollar value of
recommendations not agreed
to by management.                                      $62,223         0

D. For which no
management decision has
been made by the end of the
reporting period.                        2             $655,019     $562,513

E. Reports for which no
management decision was
made within 6 months of
issuance.                                0                0            0
* Unsupported costs are included in questioned costs



                                             10
                                                     APPENDIX D
Reports With Potential Additional Program Funds

             Category                     Number   Dollar Value


A. For which no management
decision had been made by the
beginning of the reporting period.           0                0


B. Which were issued during the
reporting period.                            2        $532,013


Subtotals (A+B)                              2        $532,013


C. For which a management decision
was made during the reporting
period.                                      1        $417,219


 (i) Dollar value of
recommendations that were agreed
to by management.                                     $417,219


 (ii) Dollar value of
recommendations that were not
agreed to by management.                                      0


D. For which no management
decision has been made by the end
of the reporting period.                    1         $114,794


E. Reports for which no
management decision was made
within six months of issuance.              0                 0




                                     11
                                                      APPENDIX E
Reports With Funds Be Put To Better Use


               Category                   Number   Dollar Value

A. For which no management
decision had been made by the
beginning of the reporting period.           0                0


B. Which were issued during the
reporting period.                           1          $36,071


Subtotals (A+B)                             1          $36,071


C. For which a management decision
was made during the reporting period.       1          $36,071


 (i) Dollar value of recommendations
that were agreed to by management.                     $36,071


 (ii) Dollar value of recommendations
that were not agreed to by
management.                                 0                 0


D. For which no management decision
has been made by the end of the
reporting period.                           0                 0


E. Reports for which no management
decision was made within six months
of issuance.                                0                 0




                                     12
                                                                     APPENDIX F
Reporting Requirements of the IG Act

Section of Act                      Requirement                           Page

Section 4(a)(2)    Review of Legislation and Regulations                  None

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies         None

Section 5(a)(2)    Recommendations for Corrective Action With             None
                   Respect to Significant Problems, Abuses, and
                   Deficiencies

Section 5(a)(3)    Significant Recommendations From Agency’s              None
                   Previous Report on Which Corrective Action Has
                   Not Been Completed

Section 5(a)(4)    Matters Referred to Prosecutive Authorities and        None
                   Resulting Convictions

Section 5(a)(5)    Matters Reported to the Head of the Agency             None

Section 5(a)(6)    List of Audit Reports Issued During the
                   Reporting Period                                         8

Section 5(a)(7)    Summary of Significant Reports                           3

Section 5(a)(8)    Statistical Table – Questioned Costs                    10

Section 5(a)(9)    Statistical Table – Recommendations That Funds          12
                   Be Put to Better Use

Section 5(a)(10)   Summary of Audit Reports Issued Before the             None
                   Commencement of the Reporting Period for
                   Which No Management Decision Has Been Made

Section 5(a)(11)   Significant Revised Management Decisions Made          None
                   During the Reporting Period

Section 5(a)(12)   Significant Management Decisions With Which            None
                   the Inspector General Is in Disagreement

Section 5(a)(13)   Information Described Under Section 05(b) of           None
                   the Federal Financial Management Improvement
                   Act of 1996




                                     13
                           The OIG audit mission is to provide timely, high-quality
                           professional products and services that are useful to OIG’s
                           clients. OIG seeks to provide value through its work, which is
                           designed to enhance the economy, efficiency, and effectiveness
                           in EAC operations so they work better and cost less in the
                           context of today's declining resources. OIG also seeks to detect
OIG’s Mission              and prevent fraud, waste, abuse, and mismanagement in these
                           programs and operations. Products and services include
                           traditional financial and performance audits, contract and grant
                           audits, information systems audits, and evaluations.


                           Copies of OIG reports can be requested by e-mail.
                           (eacoig@eac.gov).


                           Mail orders should be sent to:

Obtaining
                           U.S. Election Assistance Commission
Copies of
                           Office of Inspector General
OIG Reports                1225 New York Ave. NW - Suite 1100
                           Washington, DC 20005


                           To order by phone: Voice:     (202) 566-3100
                                                 Fax:    (202) 566-0957


                           By Mail: U.S. Election Assistance Commission
                                     Office of Inspector General
To Report Fraud, Waste               1225 New York Ave. NW - Suite 1100
and Abuse Involving the              Washington, DC 20005
U.S. Election Assistance
                           E-mail:   eacoig@eac.gov
Commission or Help
America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)


                           FAX: 202-566-0957
